<html>
<title> - H.R. 577, TO REQUIRE ANY ORGANIZATION THAT IS ESTABLISHED FOR THE PURPOSE OF RAISING FUNDS FOR THE CREATION OF A PRESIDENTIAL ARCHIVAL DEPOSITORY TO DISCLOSE THE SOURCES AND AMOUNTS OF ANY FUNDS RAISED</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
H.R. 577, TO REQUIRE ANY ORGANIZATION THAT IS ESTABLISHED FOR THE 
 PURPOSE OF RAISING FUNDS FOR THE CREATION OF A PRESIDENTIAL ARCHIVAL 
 DEPOSITORY TO DISCLOSE THE SOURCES AND AMOUNTS OF ANY FUNDS RAISED

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 577

  TO REQUIRE ANY ORGANIZATION THAT IS ESTABLISHED FOR THE PURPOSE OF 
RAISING FUNDS FOR THE CREATION OF A PRESIDENTIAL ARCHIVAL DEPOSITORY TO 
          DISCLOSE THE SOURCES AND AMOUNTS OF ANY FUNDS RAISED

                               __________

                             APRIL 5, 2001
                               __________

                           Serial No. 107-67
                               __________

       Printed for the use of the Committee on Government Reform



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                     U.S. GOVERNMENT PRINTING OFFICE
79-867                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
               Robert Alloway, Professional Staff Member
                         Scott R. Fagan, Clerk
          Mark Stephenson, Minority Professional Staff Member







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2001....................................     1
Text of H.R. 577.................................................     4
Statement of:
    Bellardo, Lewis J., Deputy Archivist, National Archives and 
      Records Administration; Scott Harshbarger, president, 
      Common Cause; Larry Noble, executive director and general 
      counsel, Center for Responsive Politics; and Kenneth A. 
      Gross, partner, Skadden, Arps, Slate, Meagher & Flom LLP...    13
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................     8
    Light, Paul C., Director, Center for Public Service, 
      Brookings Institution......................................    53
Letters, statements, etc., submitted for the record by:
    Bellardo, Lewis J., Deputy Archivist, National Archives and 
      Records Administration, prepared statement of..............    16
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee, prepared statement of..............    10
    Gross, Kenneth A., partner, Skadden, Arps, Slate, Meagher & 
      Flom LLP, prepared statement of............................    48
    Harshbarger, Scott, president, Common Cause, prepared 
      statement of...............................................    28
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Light, Paul C., Director, Center for Public Service, 
      Brookings Institution, prepared statement of...............    55
    Noble, Larry, executive director and general counsel, Center 
      for Responsive Politics, prepared statement of.............    41
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     7




 H.R. 577, A BILL TO REQUIRE ANY ORGANIZATION THAT IS ESTABLISHED FOR 
    THE PURPOSE OF RAISING FUNDS FOR THE CREATION OF A PRESIDENTIAL 
 ARCHIVAL DEPOSITORY TO DISCLOSE THE SOURCES AND AMOUNTS OF ANY FUNDS 
                                 RAISED

                              ----------                              


                        THURSDAY, APRIL 5, 2001

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Putnam.
    Staff present: J. Russell George, staff director and chief 
counsel; Randy Kaplan, full committee professional staff 
member; Bonnie Heald, director of communications; Earl Pierce, 
professional staff member; Matthew Ebert, policy advisor; Grant 
Newman, assistant to the subcommittee; Brian Hom, intern; 
Michelle Ash and David McMillen, minority professional staff 
members; and Jean Gosa, minority clerk.
    Mr. Horn. I apologize for being late. This is a first.
    We are delighted to have my colleague and very 
distinguished chairman in his own sense, Mr. Duncan. A quorum 
being present, we are glad to have you here.
    The subject of today's hearing is both timely and 
important. H.R. 577, introduced by Mr. Duncan from Tennessee, 
is a bill that would require organizations established to raise 
funds to create Presidential libraries disclose the names of 
their contributors and the amounts of their donations.
    This bill is similar to H.R. 3239, which was introduced by 
Representative Duncan in the 106th Congress. It is designed to 
ensure that fundraising for Presidential libraries is public 
information and is free from conflicts of interest or the 
appearance of impropriety.
    In 1939, President Franklin D. Roosevelt developed the 
concept of a Presidential library to house his Presidential 
papers and other historical materials. The National Archives 
and Records administers Presidential libraries for every 
President since Herbert Hoover, with the exception of former 
President Nixon, whose library is privately administered and 
funded.
    Today these libraries maintain over 400 million pages of 
text, nearly 10 million photographs, over 15 million feet of 
motion picture film, and approximately 500,000 Presidential 
objects.
    In order to establish a Presidential library, a President's 
family or political associates generally create a nonprofit 
foundation or organization to receive contributions and 
donations. Because of the private nature of these organizations 
and because the President does not play an official role in the 
organization, these fundraising activities are not subject to 
public scrutiny. Under current law, Presidential library 
foundations can raise unlimited amounts of money from 
undisclosed sources. H.R. 577 would require that the names of 
these donors and the amounts of their contributions be publicly 
disclosed.
    [The prepared statement of Hon. Stephen Horn and the text 
of H.R. 577 follow:]
[GRAPHIC] [TIFF OMITTED] T9867.001

[GRAPHIC] [TIFF OMITTED] T9867.002

[GRAPHIC] [TIFF OMITTED] T9867.003

    Mr. Horn. We have today a number of witnesses who will 
discuss this legislation, and we will elaborate, perhaps, on 
this bill one way or another. We welcome all of our witnesses 
and look forward to their testimony.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]
[GRAPHIC] [TIFF OMITTED] T9867.004

    Mr. Horn. The first panel is Representative John Duncan, 
Member of Congress from Tennessee, and author of the 
legislation.

  STATEMENT OF HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Thank you very much for inviting me here this 
morning, and thank you for holding this hearing and for 
offering to move this legislation. I want to say good morning 
also to my colleague, Mr. Putnam.
    I want to say, Chairman Horn, that this is my second time 
appearing before this subcommittee. You held a hearing a few 
years ago on some legislation that we worked on together to 
help small businesses compete, be able to compete more fairly 
with government agencies, the Freedom From Government 
Competition, and that legislation, at least major portions of 
it, were enacted into law. So I appreciate that.
    Today I am here before you concerning a bill that I 
introduced back in the 106th Congress concerning Presidential 
libraries. In fact, I introduced this bill in November 1999, 
approximately a year and a half ago, and long before the 
controversies of recent months, because I felt that the public 
should be made aware of possible conflicts of interest that 
sitting Presidents can have while raising funds for their 
libraries. In most cases, we do not know who these donors are 
or what interests they may have on any pending policy decisions 
that are to be made.
    The bill I have introduced in this Congress, H.R. 577, is a 
simple public disclosure bill. In fact, I don't suppose you 
will ever hold a hearing on a shorter, simpler bill. It does 
not prohibit any type of contribution, nor does it limit the 
amount of any contribution. Any person can still contribute $1 
million or even several million dollars to a Presidential 
library.
    One problem that exists today is that a person who is very 
limited in what they can contribute to a Presidential campaign 
could potentially contribute millions to their library and 
perhaps receive favors in return.
    H.R. 577 would require these donors and donations to be 
made public so that the citizens of this country can decide for 
themselves if they believe there is some type of quid pro quo 
at work here.
    I don't believe, Mr. Chairman, that anybody would have a 
problem with this bill, unless they want to keep this process 
secret.
    Quite some time ago Fred Wertheimer, president of Democracy 
21, said, ``Any President of the United States should not be 
raising secret money, period.'' He said, ``If you are President 
of the United States and you are raising money, particularly to 
things that inure to your benefit and interest, you have the 
responsibility to the American people to tell them where that 
money is coming from.''
    The National Journal had an article earlier this year, in 
fact, just last--I started to say last month, but we are in 
April now, this was February 24th, and they say in this 
article, ``No sitting president, even the two-termers, should 
be headlining intimate little dinners at private mansions in an 
effort to raise unlimited amounts of cash from undisclosed 
sources, foreign and domestic, so that their accumulated papers 
and the record of their White House achievements can be safely 
stored for all eternity.
    The Knoxville News Sentinel, shortly before I introduced 
this legislation, ran an editorial concerning, at the time, 
former President Clinton, and they said, ``Maybe the President 
is hitting up donors now while he still has the clout to do 
it.'' This editorial said, ``Clinton is still a sitting 
President and is in a position to do favors for donors. His 
raising more money for his library behind closed doors may be 
legal, but it smells all the same.''
    This legislation, of course, is not aimed at former 
President Clinton or anybody else, it is just, I think, good 
public policy to require that these donations be disclosed. As 
I said a few moments ago, I think anyone who would oppose this 
could only do so because they had some motive to keep some of 
these things secret. I don't think that should be done.
    So that concludes my testimony. I appreciate your giving me 
the courtesy to be here with you this morning.
    [The prepared statement of Hon. John J. Duncan, Jr., 
follows:]
[GRAPHIC] [TIFF OMITTED] T9867.005

[GRAPHIC] [TIFF OMITTED] T9867.006

    Mr. Horn. Well, I hope you can join us on the panel up 
here. I would like to call on my colleague from Florida, Mr. 
Putnam, for an opening statement. He has some other things to 
do also. If you want to come on up, we will have Mr. Putnam 
give his opening statement.
    Mr. Putnam. Thank you, Mr. Chairman, and I thank Mr. Duncan 
for this timely issue. My first foray into this congressional 
business was a full-blown hearing on the pardon of Marc Rich. 
We were informed that his ex-wife had contributed a large sum 
of money to help fund the Clinton Library, and the committee 
tried to find out how much, and we didn't have a very easy time 
of that. We asked her and she took the fifth, and we subpoenaed 
the library and finally discovered she had given $450,000.
    It shouldn't take scandals and subpoenas to know who is 
contributing to Presidential libraries. It ought to be publicly 
disclosed. Through the Government Reform Committee's work, I 
have come to two conclusions.
    First, it is clear that the government and the public have 
a substantial interest in these facilities. The libraries are 
built through private contributions, but after they are built, 
they are deeded over to the Federal Government and run by the 
National Archives. Since these facilities end up being run by 
the government, we should know what money is used in their 
construction. It is also logical for the public to know how 
much was raised and from whom and how it came about.
    Second, it is clear that the vast majority of individuals 
who contribute to Presidential libraries, not surprisingly, are 
political supporters of the President, any President. It 
applies to all Presidential libraries. These individuals make 
contributions to libraries just like they make contributions to 
parties or other charities of their interest.
    We have laws requiring public disclosure of political 
contributions, and I support that. We believe that public 
scrutiny will let us know when people are buying access or 
influence, or that there is the appearance thereof. For the 
same reasons, contributions to Presidential libraries should be 
disclosed.
    Currently the foundations are private and their activities 
are not open to public scrutiny. They can raise unlimited 
amounts of money from undisclosed sources. This invites abuse 
and accusations of undo influence. Mr. Duncan's bill, which was 
first introduced last Congress, long before the current 
scandal, changes that.
    The concept of public disclosure of contributions to 
libraries should not be terribly controversial. It should be 
bipartisan in its support. I look forward to hearing further 
details about the legislation. For example, should there be a 
threshold under which contributions need not be disclosed, how 
should the libraries go about making their disclosure, how 
frequently. These are issues that are at the margin, the core 
being that Mr. Duncan has seized upon an important issue, an 
important issue for public disclosure, and one that I hope this 
Congress will receive very warmly.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Horn. I thank the gentleman for his opening statement. 
By unanimous consent, I would like to note that Mr. Duncan will 
be a member of this panel.
    Hearing no objection, it is unanimously approved that he be 
a part of the panel.
    So, at this point let's go to panel two. That is Dr. Lewis 
J. Bellardo, Deputy Archivist, National Archives and Records 
Administration; Mr. Scott Harshbarger, president, Common Cause; 
Mr. Larry Noble, executive director and general counsel, Center 
for Responsive Politics; Mr. Kenneth A. Gross, partner, 
Skadden, Arps, Slate, Meagher & Flom LLP; Mr. Paul Light will 
be here shortly, director, Center for Public Service, Brookings 
Institution.
    Gentleman, as you know, this is an investigating committee, 
and we do swear in anybody but our colleagues. So if you will 
raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all four members of 
panel two are sworn. We will start with Dr. Bellardo.

  STATEMENTS OF LEWIS J. BELLARDO, DEPUTY ARCHIVIST, NATIONAL 
    ARCHIVES AND RECORDS ADMINISTRATION; SCOTT HARSHBARGER, 
 PRESIDENT, COMMON CAUSE; LARRY NOBLE, EXECUTIVE DIRECTOR AND 
GENERAL COUNSEL, CENTER FOR RESPONSIVE POLITICS; AND KENNETH A. 
    GROSS, PARTNER, SKADDEN, ARPS, SLATE, MEAGHER & FLOM LLP

    Mr. Bellardo. Congressman Horn, Chairman Horn----
    Mr. Horn. We are going to have to get that--this is a crazy 
room.
    Mr. Bellardo. Can you hear me now?
    Mr. Horn. We can.
    Mr. Bellardo. Chairman Horn, Congressmen Duncan and Putnam, 
thank you for the opportunity to speak with you today. I want 
to thank you for holding this hearing on H.R. 577. I am 
delighted to join you this morning to offer some background on 
the Presidential library system and its multiple benefits to 
scholarship, public policy, education, and a more complete 
understanding of our history.
    This has been a very successful public/private partnership, 
and we greatly appreciate the opportunity to explain why it has 
flourished for the past 60 years and 11 Presidential 
administrations.
    Sixty years ago, Franklin D. Roosevelt proposed creating a 
Presidential library that would be a part of an institution 
whose growth he had shepherded, namely, the National Archives. 
Roosevelt suggested an innovative approach. He would donate the 
land and build the library with private funding, and then he 
would give the library and his papers to the National Archives.
    On June 30, 1941, Roosevelt dedicated his library at Hyde 
Park. His words of dedication remain important today, ``to 
bring together the records of the past and to house them in 
buildings where they will be preserved for the use of men and 
women in the future, a nation must believe in three things: It 
must believe in the past, it must believe in the future, and it 
must, above all, believe in the capacity of its own people so 
to learn from the past that they can gain judgment in creating 
their own future.''
    In the services that it provided for its researchers, its 
extensive collection of materials and the incorporation of a 
museum experience for hundreds of thousands of visitors a year, 
the Roosevelt Library became the model of the Presidential 
library system, which soon began to grow. The library system 
was codified during the Eisenhower administration with the 
Presidential Libraries Act of 1955. This act not only provided 
a continuing legal authority for the government to accept the 
gifts of the library, but authorized the government to enter 
into agreements with State and local governments, with 
universities, with institutes and foundations, for the purposes 
of using land, buildings and equipment for a Presidential 
archival depository. This means three and even four-way 
partnerships, sometimes as foundations, universities, local 
communities, come together to build a Presidential center.
    In 1986, Congress passed various amendments to the previous 
act as a cost reduction and control mechanism to reduce costs 
of operating the libraries and also to ensure that their 
designs met archival standards.
    44 U.S.C. 2112 requires an endowment equal to 20 percent of 
the cost of the building be transferred to the government at 
dedication to contribute to the operating expenses of the 
library. The act also required the archivist to promulgate 
architectural and design standards for the preservation of the 
materials and the inclusion of adequate research facilities. So 
on the day that the George Bush Library was dedicated, the Bush 
Foundation presented a check for $4 million to the National 
Archives Trust Fund.
    I should mention that these funds do not fully provide all 
of the funds necessary to operate the facility, but they are a 
contribution, and an important contribution.
    I trust that the chairman will agree with me that the 
materials in Presidential libraries are among the Nation's most 
important documents. Presidential records are often open for 
research long before the records of other departments and 
agencies of government are even transferred to the National 
Archives. Political scientists study the processes used by 
Presidents to govern. Economists study the impact of 
Presidential decisions on economic indicators and project what 
will happen in the future.
    Hundreds of thousands of children visit libraries each year 
to learn about how Presidents make decisions, how laws are 
passed, how wars were fought, and how our civil rights have 
been ensured. And over 1 million visitors each year view the 
human drama of the Presidency through the power of objects and 
documents displayed in the libraries.
    Whatever their larger vision has been, former Presidents 
and their families have agreed that a lively exciting 
institution that draws a large visitorship, an institution that 
provides an informative program of exhibits, public and 
educational events, must have an active and generous 
foundation. The government cannot be expected to provide 
appropriated funds to each Presidential library for these 
value-added purposes, and the library foundations have evolved 
to meet these needs.
    The contributions of these support organizations to the 
library spell the difference between static repositories and 
lively vital centers of scholarship and service to the public.
    So to kind of recapitulate what the foundations or 
institutes do as it relates to the libraries and NARA, they 
obtain the land, this is often in conjunction with the 
university or with local community groups or local governments 
and so forth; they obtain the land, they build the building, 
they provide the keys to us after having created the building 
to our design specifications, they hand us an endowment for the 
partial maintenance of the building.
    Fortunately for us, they usually transfer only the 
footprint of the building to us, which means that they have to 
maintain the parking and the grounds. That is another plus from 
our standpoint.
    They provide funds to do exhibits, to support historical 
conferences, public policy symposia, educational materials and 
public events such as the World War II events at the 
commemorations at the Eisenhower Library, and even have, in 
recent years, made contributions to major building renovations.
    So, on the other hand, directly appropriated funds pay for 
activities mandated by the law as part of NARA's mission. These 
include the appraisal of documents, the accessioning, the 
processing and preserving of these materials, as well as 
providing reference services. NARA also provides security, 
facility maintenance of the building itself, and environmental 
and safety controls.
    So, in conclusion, Mr. Chairman, this is a system that has 
worked economically, a system that has served the purposes 
envisaged by Presidents Roosevelt, Truman and Eisenhower, a 
system that has won the accolades of scholars and students from 
around the country for 60 years. The National Archives is proud 
of what we have achieved with this partnership and look forward 
to the next 60 years of growth and improvement.
    Mr. Chairman, that concludes my prepared remarks. I would 
be happy to answer any questions at an appropriate time.
    Mr. Horn. Thank you for your statement. We will wait until 
we can go through all the witnesses, and then we will have the 
questions and answers.
    [The prepared statement of Mr. Bellardo follows:]
    [GRAPHIC] [TIFF OMITTED] T9867.007
    
    [GRAPHIC] [TIFF OMITTED] T9867.008
    
    [GRAPHIC] [TIFF OMITTED] T9867.009
    
    [GRAPHIC] [TIFF OMITTED] T9867.010
    
    [GRAPHIC] [TIFF OMITTED] T9867.011
    
    [GRAPHIC] [TIFF OMITTED] T9867.012
    
    [GRAPHIC] [TIFF OMITTED] T9867.013
    
    [GRAPHIC] [TIFF OMITTED] T9867.014
    
    [GRAPHIC] [TIFF OMITTED] T9867.015
    
    [GRAPHIC] [TIFF OMITTED] T9867.016
    
    Mr. Horn. Our next presenter is Mr. Scott Harshbarger, 
president of Common Cause.
    Mr. Harshbarger. Mr. Chairman, thank you very much, and 
members, for this opportunity for Common Cause to testify on 
this important issue, and for my first opportunity in this role 
to appear before you and to see you all again.
    Common Cause totally supports both the noble principles and 
the reality of what has occurred with the various Presidential 
foundations and, as so eloquently described by the speaker 
before me, we also believe very much in an engaged, educated 
citizenry and the role they play. Common Cause also cares about 
open, honest and accountable government.
    We are here because there have been a number of issues 
raised, not only recently, with the Presidential pardon issues, 
but others, and so I thought we could focus on what the issues 
are that bring us here, and particularly, thanks to Congressman 
Duncan, have the issue presented in the House, and Senator 
Specter in the Senate.
    We are here because Presidential library foundations now 
raise millions of dollars in private contributions and have 
become more and more ambitious. The FDR Library, the first of 
the 10 Presidential libraries now in the Federal system, cost 
under $400,000 to build. Former President Clinton's library 
complex is expected to cost well over $100 million.
    Any time elected officials or their supporters are raising 
millions of dollars in private donations, there is a cause for 
concern; who are these donors and are their large gifts their 
way of gaining access and influence at the White House or in 
any other way in terms of the performance of public officials 
and public responsibilities?
    The Clinton pardon scandal brought home problems with the 
Presidential library system. The Rich donation of $450,000 that 
Congressman Putnam referenced and Beth Dozoretz's pledge of $1 
million to the library and their successful lobbying for the 
pardon of Marc Rich, raised the problem very directly.
    When Congress wanted to investigate these media reports and 
learn the names of the donors to the library foundation, the 
library's director tried to stonewall and didn't comply with 
the congressional subpoena. It took the threat of contempt to 
bring limited disclosure of contributors.
    Common Cause wrote to Skip Rutherford asking that the 
Clinton library donors be disclosed. Then when a few key 
members of the House Government Reform Committee got access to 
the names of the top donors, we stated publicly that this 
accommodation wasn't adequate.
    Let's be clear about this: Our view is that Presidents 
should not be in the business of raising private funds for 
their libraries, but we recognize the political difficulties in 
translating this view into the legislation that will be 
enacted.
    Again, we mentioned H.R. 577, sponsored by Representative 
Duncan, is an important step in addressing these issues posed 
by these libraries. Senate 645, sponsored by Arlen Specter of 
Pennsylvania, would require a sitting President to disclose all 
contributions to a library foundation of more than $5,000, and 
that is a step in the right direction in reforming the process.
    But there are two other problems we must find a way to 
address. First is the problem that the gifts are unlimited. 
Clinton and Reagan both solicited a contribution for their 
library while still in office. These gifts can give any donor 
with an agenda before the Federal Government a powerful tool to 
gain access and influence at the highest levels of the 
executive branch.
    What President would not be grateful for a $1 million or a 
$5 million or $10 million gift to his or her library? Second is 
the problem that these gifts can come from foreign sources, 
which are prohibited from almost any other type of campaign and 
other contributions.
    While President Bush did not raise contributions for his 
library, Kuwait and Saudi Arabia both are among his $1 million 
donors. Now they ask the father of a sitting President. Is 
there a potential for a conflict of interest or potential 
conflict?
    Common Cause recommends that library contributions not be 
permitted from foreign nationals or foreign governments and 
that there be limits on the sizes of donations to Presidential 
library foundations.
    As we consider disclosure and contributions for 
Presidential libraries, we should take note of the fact that we 
may want to apply these requirements not only to sitting 
Presidents. Our history shows that former Presidents also wield 
influence in their parties, with many Members of Congress, and 
often take active roles as heads of commissions, diplomatic 
emissaries, and even in brokering negotiations between the 
United States and leaders of other countries, as Jimmy Carter 
did in Haiti.
    These restrictions are really a way to ensure that our 
Presidents, past and present, are not beholden to wealthy 
special interests, and that our Presidential libraries remain 
free to serve the American public, not so much as monuments to 
individual politicians, but as repositories of important public 
documents about a particular Presidential administration.
    As Presidential library scholar Curt Smith has observed, 
``It's not only their history, it's our history.''
    We have submitted a prepared statement in addition, and we 
thank you for this opportunity to speak to this committee.
    Mr. Horn. Thank you very much. That is very helpful.
    [The prepared statement of Mr. Harshbarger follows:]
    [GRAPHIC] [TIFF OMITTED] T9867.017
    
    [GRAPHIC] [TIFF OMITTED] T9867.018
    
    [GRAPHIC] [TIFF OMITTED] T9867.019
    
    [GRAPHIC] [TIFF OMITTED] T9867.020
    
    [GRAPHIC] [TIFF OMITTED] T9867.021
    
    [GRAPHIC] [TIFF OMITTED] T9867.022
    
    [GRAPHIC] [TIFF OMITTED] T9867.023
    
    [GRAPHIC] [TIFF OMITTED] T9867.024
    
    [GRAPHIC] [TIFF OMITTED] T9867.025
    
    [GRAPHIC] [TIFF OMITTED] T9867.026
    
    [GRAPHIC] [TIFF OMITTED] T9867.027
    
    Mr. Horn. Mr. Larry Noble is executive director and general 
counsel for the Center for Responsive Politics. Mr. Noble.
    Mr. Noble. Mr. Chairman and members of the committee, thank 
you for the opportunity to testify on the important question of 
the disclosure of financial contributions to Presidential 
libraries. I would also note that, like Mr. Harshbarger, this 
is my first opportunity to appear in my present capacity before 
the committee, and I am pleased to do so.
    The Center for Responsive Politics is a nonpartisan, 
nonprofit research organization that monitors and analyzes 
contributions in Federal elections. The Center is not an 
advocacy group. The reason for our existence is simple: To 
inform citizens about who is paying for Federal elections and 
who is in the position to exercise influence over the elected 
officials who represent the public in our Nation's Capital. We 
can do this because the financing of your campaigns are open to 
public scrutiny.
    Starting with the Federal Election Commission's data, the 
center compiles and publishes full campaign finance profiles 
for all Members of Congress, all candidates for Congress, and 
for most of the Presidential contenders. For example, we 
compile and make public a summary of how much you took in 
during the last election cycle, how much you spent, how much 
money you had left in your campaign, how much of your campaign 
contributions came from PACs versus individuals, and how much 
you contribute to your own campaigns. We also break down these 
contributions geographically.
    The public can also get a breakdown of contributions by 
industry and interest group. We show a candidate's leading 
contributors standardized and grouped by organizations. We even 
display how well he or she did in fully identifying the 
occupation and employees of their donors.
    This is public disclosure. Without it, the public would not 
have the faintest idea of who is financing our elections, how 
much they gave and what they might be expecting in return. The 
law has recognized for almost 100 years that our democracy is 
significantly strengthened when the public knows who is giving 
the money. The public, however, is still in the dark with 
regard to several back-door ways of buying influence in 
Washington. One of these is the funding of Presidential 
libraries.
    As we all know, Presidents begin fundraising for their 
libraries well before they leave office. President Clinton was 
not the first, and I suspect he will not be the last. When you 
have a sitting President whose fundraising machine is raising 
millions of dollars in unlimited contributions for a project on 
his behalf, legitimate concerns must be raised by the identity 
of the donors.
    As you are all aware, the perception is that money, at the 
very least, opens doors for the donors, and there is a 
perception and reality that the large contributor is looking 
for something in return. We all know too well about President 
Clinton's pardon of Marc Rich and how six-figure contributions 
to a Presidential library fund, along with other political 
donations, has left the indelible impression, accurate or not, 
that a Presidential pardon was bought.
    Few reasonable people any longer doubt that one of the most 
critical checks against the real and apparent corruption in 
politics is disclosure. As Justice Brandeis wrote in 1933, 
``Sunlight is said to be the best of disinfectants; electric 
light the most efficient policeman.''
    Doesn't the public deserve to have the sunlight shine on 
the Presidential library contributors? If you answer yes, then 
you need a law that does more than expresses a worthwhile 
sentiment and requirement for disclosure.
    As always, when discussing any law, the devil is in the 
details. Important questions must be answered before disclosure 
of Presidential library contributions will become a reality. 
For example, what information must be disclosed; who must 
disclose it; how often and for how long will disclosure be 
required; in what form must they disclose it; who will 
administer and enforce the disclosure?
    As history has shown us, a law unenforced may be as bad as 
no law at all, as it leaves you with a false comfort that you 
have done something, even as the problem rages on.
    Mr. Chairman, members, as you address these issues, 
remember that this is about more than politics or philanthropic 
desires of the well-to-do. It is about the public interest in 
holding elected officials accountable for their actions and 
decisions, and the public's confidence that what belongs to the 
public, an office holder's free and untainted judgment, is not 
being sold.
    Thank you for this opportunity to testify. I will be happy 
to answer any questions you have.
    [The prepared statement of Mr. Noble follows:]
    [GRAPHIC] [TIFF OMITTED] T9867.028
    
    [GRAPHIC] [TIFF OMITTED] T9867.029
    
    [GRAPHIC] [TIFF OMITTED] T9867.030
    
    [GRAPHIC] [TIFF OMITTED] T9867.031
    
    [GRAPHIC] [TIFF OMITTED] T9867.032
    
    Mr. Horn. Thank you very much. All of you come at this in 
various ways, and we are going to get a lot of knowledge out of 
it.
    Mr. Gross is the partner at Skadden, Arps, Slate, Heagher & 
Flom. We are delighted to have you. Please proceed.
    Mr. Gross. Thank you, Mr. Chairman. I am not here 
representing any group, but I was immediately drawn to this 
bill because it is short and sweet. It is shorter than most 
footnotes, and I liked that right off.
    Mr. Horn. It might start a terrible trend around here.
    Mr. Gross. I will try and keep my comments to be the same. 
I just had a few specific comments as I looked at it.
    I guess there is always a question about what a library is. 
Most of the libraries that I have seen setup in recent years--
there is a defined term there, and you could limit the scope of 
the disclosure by just limiting the contributions just to the 
library. So I think it needs to be drafted in a way to include 
the surrounding and related facilities in and around the 
library, since the definition of what the library is, as I read 
it, is kind of a narrow definition, and, of course, the 
complexes have become more elaborate in recent years.
    I do believe that there should be disclosure of 
contributions after the President leaves office. This bill does 
not address that. I think the Specter bill limits it to while 
the President is in office.
    It certainly should continue after the President leaves 
office. I don't know whether it should be in perpetuity. If it 
is a one-term President, he or she could run again. You could 
have a Grover Cleveland situation. Certainly there should be a 
meaningful period of post-service disclosure.
    As far as thresholds go, I think I would recommend the 
$5,000 threshold for disclosure. It is the disclosure threshold 
right now for filing 990's, which is the tax return for 
501(c)3. I should say disclosure only to the IRS. It is not 
public disclosure, and that is what would be made public with 
this bill, presumably, and it seems like a good number to me.
    There is always the threat, and we got into this at my 
years at the Federal Election Commission, of contributions made 
in the name of another. You give money to some third person, 
who then donates it, and that thwarts the disclosure. I think 
there needs to be a specific provision to prevent conduit 
contributions, contributions in the name of another, as well as 
probably some additional information, occupation, employer, 
some of the information we see now currently on the Federal 
Elections Commission reports.
    As far as its administration goes, I am reluctantly moving 
toward the IRS. The reason I say ``reluctantly'' is that the 
527 legislation, the soft PAC legislation that passed last 
year, is being administered by the IRS. It puts the IRS in the 
business of being a disclosure agency.
    The culture of the IRS, the whole legal construct of the 
IRS, is to maintain secrecy of taxpayer information. They were 
thrust into a disclosure role there, which I think was an 
uncomfortable one for them and probably should have been at the 
Federal Election Commission, which does a good job with 
disclosure. Here this is basically just tax information. So I 
sort of reluctantly come to the IRS as the appropriate 
disclosure agency.
    Perhaps maybe disclosure could be made to the Archives, 
but, as Mr. Noble noted, you need some enforcement mechanism, 
and I think that would also probably be placed at the IRS for 
late filing of returns and that type of thing.
    So those are my thoughts on the administration side of the 
bill. Again, any questions, I would be happy to address.
    [The prepared statement of Kenneth Gross follows:]
    [GRAPHIC] [TIFF OMITTED] T9867.033
    
    [GRAPHIC] [TIFF OMITTED] T9867.034
    
    [GRAPHIC] [TIFF OMITTED] T9867.035
    
    Mr. Horn. Thank you. Dr. Light, is he here yet?
    OK, we will take his testimony later. Let us start with 
some questions then, if we might. I wonder if the author of 
this legislation would like to ask a few questions?
    Mr. Duncan. Thank you very much, Mr. Chairman. I want to 
thank each member of the panel for being here to testify. I 
think that each of you has made very helpful comments and many 
good suggestions, and I can tell you that I don't have any 
objections to revising this legislation in some of the ways 
that you have suggested.
    We tried to keep the bill as short and simple as possible 
because we want to remove as many objections as possible so 
that we can get something through. If you start putting too 
many limits or details on some of this, we potentially run into 
objections from the White House or other places.
    Dr. Bellardo, do you see any problems about the Archives 
administering these disclosure requirements? Would you rather 
it be placed, as Mr. Gross suggested, in some agency such as 
IRS?
    Mr. Bellardo. I think Mr. Gross indicated probably some 
other agency would be more appropriate, since most of the funds 
ultimately end up coming to us for the support of the library 
and the library programs. I think that would further complicate 
our situation. It would probably be better administered by 
another agency.
    Mr. Horn. Could you speak up just a little?
    Mr. Bellardo. Oh, sure. Were you able to hear me?
    Mr. Horn. Keep going. You are getting there.
    Mr. Bellardo. That would be all I would have to say at this 
point.
    Mr. Duncan. Mr. Harshbarger, I appreciate the letter that 
Common Cause sent to the Clinton Library last February 27th, 
and I think it is a well-written letter and it makes a lot of 
good points that pertain to this legislation. I don't remember, 
did you say that you thought these contributions should be 
limited? I notice you requested contributions over $5,000 be 
disclosed, as is in Senator Specter's legislation. Do you think 
there should be a top limit on the contributions?
    Mr. Harshbarger. We did think they should not be unlimited.
    Mr. Duncan. But you haven't suggested an amount?
    Mr. Harshbarger. $5,000, we would prefer limits. I mean, I 
guess, you can start to talk about the amount and number. I am 
very sympathetic to your point, Congressman, that you are 
trying to get something through here, and if we--I am sure the 
two gentlemen here to my right can speak even more to this 
issue, about how you deal with the details of disclosure, and 
those of us that have been enforcers also understand those 
problems.
    On the other hand, if the reason you are trying to get the 
disclosure is for the purposes of public disclosure, we all 
know that if you don't have a method that starts to lay it out 
in some detail, it will be driven by other factors that will 
start to weigh, and at least we have experience in other areas 
to try to figure out how to do it.
    I am concerned with--you know, this is a great opportunity 
for me to raise questions to my two knowledgeable colleagues 
here--why you would think that the IRS--I mean, because I think 
part of the problem here, if you are doing a sitting President, 
for example, you are interested in knowing in a somewhat timely 
manner who gave the contribution, specifically the reason to 
get a sitting President's information is because you are 
concerned about the reasons that this money is being given now, 
and you want to know what is pending.
    So having an agency, while we all know some of the issues 
with the FEC, I think the other question is they are at least 
used to making disclosures available quickly so people can take 
advantage of that. I would think at least as to the sitting 
President, you would want to treat these much more as any kind 
of donation that comes in the nature, if not campaign 
contributions, at least disclosure. If you are giving gifts, it 
would have to be disclosed. So I think that is where I would be 
concerned.
    I tend to wholly agree with your concept. Everything here 
ought to be disclosed. I understand that people may not want to 
do that, but most of the major institutions in this country 
proudly display who their contributors are at all levels. I 
mean, the more platinum you can get, the better, at most 
universities, and smaller donations as well.
    So I don't think that the privacy issue is important. If 
your goal is to get this, not for puritan interests, but 
because you are trying to figure out what the reasons are 
somebody might have given this money, I think you have to treat 
it more in the nature of a disclosure that is ongoing.
    Mr. Duncan. I had the thought that if you could run into 
the argument that some of these libraries would make, that 
especially after a President leaves office, that if they can 
get a contribution from some corporation or foundation, they 
serve educational purposes. I can see them making some pretty 
good arguments against limiting these contributions to any 
great extent. But I don't personally have any real objections 
to it.
    Mr. Noble, do you have any comments you wish to make as to 
what Mr. Harshbarger said?
    Mr. Noble. Yes. I think the FEC is the best place to put 
this, and I am personally aware the FEC is not without its 
controversy. But the FEC, as Mr. Gross said, does an excellent 
job in disclosure. It right now has systems setup for doing 
this type of thing. It is setup to take electronic disclosure, 
electronic filing. It has an excellent Web site where it puts 
the information out there for the public. And it also has right 
now what is a temporary administrative fines program, that is 
apparently working very well and they are going to ask for an 
extension of that program, and that is the type of program that 
would serve as a good enforcement mechanism for any type of 
reporting system where you have a late report and you want to 
just have administrative fines for it.
    So I think the FEC is the one that is setup right now to do 
it quickly and it could get it online pretty quickly. So that 
is where I think it would belong.
    Mr. Duncan. Mr. Gross.
    Mr. Gross. First of all, I would oppose limits. I don't 
think there should be limits on these contributions. These are 
approved charities by the Internal Revenue Service under 
501(c)3. They are considered to be in the public interest. 
Anybody who has visited one of these Presidential libraries I 
am sure has been impressed with them. They provide a great 
public service, and I would not want to interfere with the 
fundraising, as long as we have proper disclosure.
    I don't think we need to get into trying to disclose a 
pledge, because I don't think you can administer a pledge. A 
Federal Election Campaign Act used to have a written pledge 
disclosure requirement, and it was taken out. I think if we get 
the disclosure at some point, even after the President serves, 
we will be well served.
    I personally wouldn't mind seeing this at the Federal 
Election Commission, because they are used to administering, 
putting information out. The problem I have--and that is where 
I wish, as I mentioned, the 527 legislation had placed 
disclosure--is, this is a tax entity. This is a 501(c)3, it is 
not a political entity, and just because it is going to a fund 
that happens to be connected with a President or a former 
President, I don't think shifts it into the enforcement 
mechanism of the FEC and the disclosure mechanism of the FEC.
    The other problem with limits, by the way, is you get into 
a whole disclosure mechanism, saying were the contributions 
from affiliated entities, and were they aggregated, and you 
don't want to get into all those types of issues.
    I think it should be strictly disclosure, and now the IRS 
seems to be able to handle disclosure because of it having 
gotten the 527 legislation. I reluctantly feel that is probably 
the most comfortable fit for this type of information.
    Mr. Duncan. Thank you very much. I know it was Dr. Light, 
the witness from the Brookings Institution, that suggested the 
$50,000----
    Mr. Horn. Here he is coming right through the door, the 
Scarlet Pimperel of American political science. He is here, he 
is there, he is everywhere.
    Mr. Duncan. Thank you very much for your supportive 
comments and suggestions.
    Mr. Chairman, thank you.
    Mr. Horn. Let me just say, we are delighted to have Dr. 
Light here. He always lends a little humor to anything he 
testifies about.
    What would you like to say, since you don't know what your 
colleagues have said?
    Mr. Light. I agree 100 percent with their wise thoughts.
    Mr. Horn. I have to swear you in. You have been sworn in 
numerous times here but let's do it again.
    [Witness sworn.]
    Mr. Horn. The clerk will note that Dr. Light has taken the 
oath.

    STATEMENT OF PAUL C. LIGHT, DIRECTOR, CENTER FOR PUBLIC 
                 SERVICE, BROOKINGS INSTITUTION

    Mr. Light. I apologize for being late. We have been working 
for the last few years on the Presidential appointments process 
reform and the Senate Governmental Affairs Committee held a 
hearing yesterday afternoon--a hearing this morning. They are 
constantly voting. Actually, they are not constantly voting so 
when they do vote it is a big event so we had a little bit of 
trouble getting that hearing underway.
    I really don't have a deep statement here. I support the 
general notion here of requiring disclosure of contributions to 
Presidential libraries. What I bring to the table here this 
morning is my own experience back in 1988, as the Senate 
Governmental Affairs Committee drafted the Presidential 
Transitions Effectiveness Act in 1988 where we decided that it 
was a wise--or the Senate and the House decided that it was a 
wise move to regulate, require the disclosure and limitation of 
funds given to private foundations that had been created to 
support a Presidential transition. I think that provides the 
precedent perhaps for Representative Duncan's legislation. I 
mean, we have done this before. We have made the decision 
before that private foundations can be regulated, and that 
there are places where such regulation makes sense.
    The decision to regulate the contributions to the 
Presidential transition funds was based on a concern about 
conflicts of interest, appearance of conflicts rather than any 
reality that we could find. We just knew that there was a lot 
of money going into transitions; that the 1981 Reagan 
transition had involved a lot of money but nobody knew how 
much, in what levels, what contributions, and it created the 
appearance of conflicts of interest that we thought was 
troublesome for democratic confidence.
    Having said that, and having looked briefly at the 
legislation and not being an expert on the regulation of 
501(c)3 tax exempt organizations, although I am in one right 
now, I would say that my notion was that, No. 1, require full 
disclosure; No. 2, link the requirement for disclosure to the 
acceptance of Federal services rendered by the National 
Archives and Records Administration. That strengthens, I 
believe, the disclosure requirement. Include pledges, and I do 
believe that you ought to limit the amount of contributions 
that are made.
    Now I am talking to a committee--a subcommittee chaired by 
a man who has raised capital dollars in an educational setting. 
There is nothing more difficult than raising money for 
buildings. You know that. We all know that. I don't think we 
could put a cap of $5,000 on contributions. Otherwise, we 
wouldn't get these Presidential libraries built until, what, 
200 or 300 years after the President elect--or the President is 
gone. Now that might not be a bad thing. You never know.
    Mr. Horn. That's right.
    Mr. Light. You never know. But I think if you are going to 
put a limit on the amount of contributions, it has got to be 
higher than the kind of limit that was imposed under the 1988 
Transitions Act of just $5,000. That's a limit that, as you 
know, President-elect Bush and Vice President-elect Cheney 
agreed to well before they were given access to the Federal 
services and dollars last December that would have required 
them to disclose.
    Basically, I am joining my colleague who was testifying 
yesterday from Common Cause, I believe on disclosure. I think 
there is an antiseptic, disinfecting effect of disclosure, and 
I think we ought to do this here and do it in such a way that 
the American public is reassured that there is no pro quo, I 
think, for the quid, or so to speak.
    [The prepared statement of Mr. Light follows:]
    [GRAPHIC] [TIFF OMITTED] T9867.036
    
    [GRAPHIC] [TIFF OMITTED] T9867.037
    
    [GRAPHIC] [TIFF OMITTED] T9867.038
    
    [GRAPHIC] [TIFF OMITTED] T9867.039
    
    Mr. Horn. Let's throw in another type, and that's in-kind 
contributions. Should they be included? And if so, who is 
putting the valuation on it?
    Mr. Noble. I would say, yes, they should be included and it 
is something you deal with with the Federal Election Campaign 
Finance laws right now. You have to value in-kind contributions 
by fair market value. Sometimes it is difficult but usually it 
is not that difficult to do, and I think they present the same 
problem as cash contributions.
    Mr. Gross. I have no question that in-kind contributions 
should be included. It is sometimes a disclosure challenge 
depending on whether it is a third--payment to a third party on 
behalf of the library or something of value that's given that 
has to be valued. But either way, that clearly should be part 
of the legislation.
    Mr. Horn. Does the gentleman from Tennessee have some more 
questions?
    Mr. Duncan. No more questions.
    Mr. Horn. Does anybody on the panel, after you have 
listened to your colleagues, do you agree with them or do you 
not agree with them? If so, we just want to get it all out on 
the record. Dr. Bellardo.
    Mr. Bellardo. I would just like to make one observation, 
and I guess it is apropos to the item that Dr. Light mentioned 
in terms of the limits that might be set, without taking a 
position itself on whether limits are good or bad. What I would 
like to do is just call attention to the fact that these 
libraries go through cycles, and the older libraries, such as 
Hoover or Roosevelt or the--or Truman, reach a point where 
major fundraising efforts become necessary in order to either, 
in the case of Roosevelt, build a building, a visitors' center; 
in the case of Truman, for example, to do a major total 
renovation inside.
    So at 50 years after the President is no longer living, 
there is not that same kind of issue, I think. But the major 
concern is that there would be sufficient opportunity to raise 
the funds at that time and sometimes those amounts are very 
large. That would be all.
    Mr. Horn. Really, as an ex-university president, I do know 
something about what happens to your donations and why you need 
them, and that is, frankly, that the capital structure is a 
very small percentage. What really gets you is the operations. 
And then the question is, after the President, any President, 
ex--President, gets the money for a Taj Mahal of one kind or 
another, I think of that when I go into the Johnson library, 
who beat them all to work and you felt that he always had whips 
down there and said, keep going, John Kennedy's Presidential 
library is not yet up, and there he got it. It is beautiful. 
But the operational money, is the Archives willing to put up 
some of the operational money? Some of these 50 years from now 
just might not be able to get the operational money. What do we 
do then?
    Mr. Bellardo. Well, we are continuing to fund operations 
for those buildings. The entire cost of the Presidential 
library system, including the two projects that we have, the 
Nixon project, which is out at Archives II, and the Clinton 
project, total approximately $40 million a year. So as of this 
point, funds are available to continue those operations.
    I can't say, you know, 100 years from now what that would 
look like as you get additional Presidential libraries coming 
on board.
    Mr. Horn. Well, I think the McKinley area down in Ohio that 
Mr. Regula has correctly protected, and the Hayes home, which 
is a marvelous home, and it isn't so much the workings of the 
library or scholarly research on manuscripts but you have 
sometimes things go on with it. In the case of the Nixon 
Library, which I must say I have fond affection for it because 
it is down to human size, and I have the same about President 
Carter. Again, it is down to human size as opposed to the Taj 
Mahal approach.
    So I would think maybe there might be people 50 years from 
now that care about history, although the way history has been 
taught in colleges recently and in high school it is a wonder 
anybody even remembers George Washington.
    So any other questions that you want to work out here? 
Because this is very well done, tight language that Mr. Duncan 
has put in there, but we can always put a little more tight 
language or we can throw something in a footnote. Since the 
Supreme Court doesn't like us putting report language in, we 
have to put everything in if that it is going to stand the 
test. I think the disclosure we are all agreed on; the in-kind 
is all agreed on.
    I guess the $5,000 one I am wondering about. To me, $1,000 
bucks still looks pretty good. I know we have tried to raise it 
on the candidates, and I have been for keeping it at $1,000. I 
don't know where that point comes. Do all the relatives put in 
$5,000? We know how that's been used in many of the campaign 
situations where little kids had been, you know, writing their 
own checkbook down for somebody they never met but the 
millionaires had a lot of kids and that's where they got the 
money.
    So I would welcome any thoughts here as to why is $5,000 
the cutoff?
    Mr. Harshbarger. Let me just, since we sort of have 
suggested that, I mean it has some parallels. There are some 
other parallels. There obviously are ways, as Mr. Noble rightly 
said and as anybody who comes from a prosecutorial background 
knows and you face, is if we don't have an enforcement 
mechanism we can write all the laws we want and it doesn't 
serve any purposes, or people will get around it.
    So I think there is a certain both--genius to the 
simplicity of this. You don't want to really--because you 
either turn it into 1 page or it is a 500-pager if you are not 
careful, I think. But the limiting principle, I would think, is 
when you are around or in the nexus in relationship of a 
sitting President or a President who is still in a position to 
be active and, of course, we have all quoted down exceptions 
beyond the time, but I think that the reason--what you are 
trying to do, I think, with this is, is this really a 
charitable solicitation? Is this a President going out and 
soliciting for a worthy cause that's a 501(c)3 entity that has 
nothing to do with him or her, or is it in their own self-
interest and you are trying to make--not give people--if we are 
suspicious--we don't want to give people other avenues to gain 
the access or the appearance of influence, or frankly to put 
the President in a position of having to face that dilemma. So 
that the closer you are to serving in office, the more 
rationale there is for limitation. The further you are away 
from it, to go to Mr. Gross' or others' point is, and to what 
was just stated is, that's much more in the nature of 
preserving history. That starts to become more of the 
educational and other purposes.
    So I think that it is not--it sounds like you can't build a 
library with $5,000 contributions. On the other hand, I mean 
who--the problem we have today is that it appeared that when 
somebody was soliciting, one of the ways once they had given 
all the hard money they could, all the soft money they could, 
all the other things that they could do, then there was one 
other avenue here, and the legal defense fund was taken care 
of, now we will go on to one more thing, and that seemed to be 
the rationale.
    Now they could all have been totally good-hearted, 
tremendously supportive, loyal people. That is not to pick on 
President Clinton, but that's why to some extent, you know, we 
are here. So in terms of contemporary--if you sort of take it 
in terms of the time relating to sitting Presidents, there is 
an argument for limits that maybe does not exist as far down 
the line in perpetuity; but I think there is some reason to 
think about a limit when you are talking about a sitting 
President's capacity to get money or people's reasons to 
contribute, as opposed to later on a corporate foundation or an 
educational body where people are otherwise making tax 
deductible donations and they are choosing that one. But that's 
our rationale, at least for keeping that in people's minds at 
this point.
    Mr. Horn. What about foreign donations?
    Mr. Harshbarger. Well, I mean I think if we know, I think 
that in the--if you were to--I guess I would say this: I would 
take the principle that the foreign donations ought to be 
prohibited. That's what we have said here. Now I think that we 
are also talking--I mean I guess my operating principle here 
was when you are contemporaneous in time to a sitting President 
or shortly thereafter, or where there is some reason to 
believe--theoretically you could reactivate limits. It is not 
impossible. We do that with former officials who were under a 
conflict of interest law when they served in a prior 
administration. They go out; they remove from them, but when 
they return limits begin to apply again.
    So it is not impossible to have some timeframe, but if 
foreign nationals and others are not supposed to contribute in 
our political process, and what we are treating this as--at 
least from our perspective, we are treating this as in the 
nature of or some way of gaining or seeking some kind of 
access, I think that's a problem with a foreign national or 
other kinds of contributions.
    I know that one other answer somebody could give this, 
well, nobody stops the parties from doing these infomercial 
receptions at conventions but at least you are using the party 
mechanism there and not the individual. That would be my 
theory. This is solicitation by a President for something that 
directly relates to him or her, and that's the reason for the 
limitation.
    Mr. Horn. Yes, Mr. Noble.
    Mr. Noble. While we don't take a position on the merits of 
a bill and don't lobby bills, I do agree with Mr. Harshbarger 
to this extent: That a lot of the same concerns that are behind 
the contribution limits in Federal elections, and the 
prohibitions on foreign nationals excepting, would be behind 
this type of activity, especially when the President is in 
office or shortly after or for some period after the President 
is in office.
    So I think you do have a situation where you have to look 
at a lot of the same interests.
    I also wanted to comment briefly on the simplicity of the 
bill. And I do think that there is--I agree with Mr. Gross that 
there is a tremendous amount to be said for simplicity, though 
it does tend to cut into his business.
    As a former enforcer, I have to say that it presents 
tremendous problems in administering the law. It looks nice 
having simple laws but it leaves so many questions unanswered, 
and either an agency, whether it be the IRS or the FEC or some 
other agency, is going to have to answer it, or else the law is 
not going to be enforceable.
    I think it is always better if Congress makes those 
decisions and gives the agency the direction to go in and makes 
the decisions about whether you want--obviously, you have to 
make the decision whether you want limits but how often 
disclosure should be, where disclosure should be, what kind of 
enforcement mechanism you want for it. Because without that, I 
think you are just going to end up with a lot of internal 
debates within an agency and a system that is not very 
effective. The agency really needs to look to Congress to make 
these decisions, at least in the first instance. Obviously 
there will be a lot of details the agency will have to fill in 
in terms of regulations, but at least in terms of the basic 
outlines of the law and what is required. I think Congress 
really should do that.
    Mr. Horn. Yes, Dr. Light.
    Mr. Light. I always thought that the simpler the 
legislation, the more business it generates because you have to 
interpret it.
    Mr. Gross. Particularly after the regulators get through 
with it.
    Mr. Light. I mean, I think that one of the points that I 
was making, I am sure is shared by others, is that money is 
like mercury in this business.
    We have got a bill now moving over from the Senate that 
closes off soft money, and I am not saying that you are going 
to get a $248 billion library fund but some huge amount of 
money is going to be looking for a new place to land, and 
that's why this bill is particularly attractive. I mean, money 
and politics looks for options, and I look forward to the 
hearing with you some time in the distant future where we 
figure out where the money is going to go from here.
    I suspect we are going to have one heck of a great 
inaugural event in 2004 and 2008 that we eventually will have 
to regulate the inaugural committees. It is just the way of the 
world. And so disclosure--I do believe in limits.
    I do worry that if you put a $5,000 cap that may be just 
too little for what has to be done here in terms of the cap on 
campaigns involved. I have been in a situation in past lives 
where I have gone out seeking soliciting funds for two former 
Vice Presidents from Minnesota, Hubert Humphrey and Walter 
Mondale. I will tell you it is about the hardest call to make 
after they leave office. Walter who? Hubert who? It is just 
hard fundraising, and if you limit that after office it may be 
what Scott is telling us is that Common Cause might be OK with 
a limitation of $5,000 or $1,000 up to the end of the 
administration and then afterwards you could raise the limit. 
Maybe that's a possible alternative here to keep the whole 
process clean.
    I don't want to put words in his mouth but maybe that's one 
option here.
    Mr. Gross. Well, one of the most impressive things about 
this bill is that it was introduced a year ago, and I 
compliment the foresight of Congressman Duncan in doing so, and 
that it isn't--we don't have to be feeling like we are 
necessarily trying to make recommendations on a bill in the 
context of the brouhaha of the Clinton Library contributions. 
And I really do have some objections or concerns about putting 
severe limits on these donations. We are deciding that this is 
a good cause; this is a 501(c)3. I understand the influence 
issue, but you are going to create a whole regulatory scheme to 
see how--who is exceeding limits, whether affiliated groups are 
exceeding limits, and I think we are doing just fine with the 
disclosure of the money that's now being disclosed to the IRS 
under 527 legislation and that we shouldn't adorn it with a lot 
of these provisions.
    I perhaps could live with a limitation while the President 
is in office. I mean, maybe you could draw a line there, but I 
understand that there are ways around that without--but I think 
if we start getting into pledges we are--it is a hopeless thing 
to enforce what a pledge is. We all know what a promise for a 
political contribution is worth; very little until you see the 
money. So I wouldn't go down that road as well.
    So I am on the column of no limits for this.
    Mr. Horn. Mr. Harshbarger, any comments?
    Mr. Harshbarger. I have had an opportunity here to comment 
now sort of arguing and negotiating against myself and I am 
sure Celia Wechsler sitting back here is beginning to worry 
deeply about what position I am going to take on behalf of 
Common Cause. I think this is a very important discussion. I 
mean, I really do. I think there is--the points that are being 
made here, I think that this is the time to--this is the time 
to focus on it because I think that each of the points that--
all of the reasons that you are having this, and the folks here 
are giving you arguments, this thing is going to get worse, not 
better.
    This isn't going to stop happening because of a particular 
circumstance. It is an avenue. And I think that--I guess one 
vantage point once in awhile you think about is what does the 
average person think about this, not what those of us who, you 
know, who maybe understand the need to raise huge amounts of 
money, but what would the average person say in terms of do 
they expect somebody got influence or not influence from making 
the contribution to the President's favorite charity or the 
President's favorite institution, and if you could give a huge 
chunk of money you are likely to have more access, the bigger 
megaphone, than somebody who is sending in their $5 check. I 
think that's one of the ways to look at this around the 
appearances aspect, and I think that is what you are trying to 
do here.
    I think later once these become--I look back on this. You 
mentioned about the history piece. I mean, today 5 years ago is 
history. I mean, so we could set shorter limits of time because 
people don't remember.
    I think Dr. Light's position is well taken. Having been in 
this world, it was amazing the number of people who supported 
me or appeared to support me until the day after I lost. It was 
sort of funny how those calls just don't get returned. You 
know, can cry a lot, you beg a lot and talk about deficits but 
it is a whole lot harder to do a deficit fundraiser the day 
after you are out of office than the day after you--or the 
period of time in which you are still in office.
    So I think that's part of the--there is no question in my 
mind that it has some influence on the way we ought to think 
about this, but thank you for letting me just ramble on with my 
thoughts about that one.
    Mr. Horn. Well, we have had some very good suggestions.
    I wonder, anything else you want this expertise on?
    Mr. Duncan. Well, Mr. Chairman, when Dr. Light said, 
``Walter who,'' I thought back when my father told me many 
years ago. He said, you know how long it takes them to forget 
you once you leave office? He said, about as long as it takes 
the ripples to disappear when you throw a rock in the water; 
and there is some truth in that.
    I can tell you that I was a lawyer and circuit court judge 
in Tennessee for many years; and, Mr. Gross, I don't have any 
objection to stirring up business for lawyers.
    Mr. Light. Thank you.
    Mr. Duncan. But you have made many good suggestions here 
today.
    Mr. Chairman, I have told the counsel that I am certainly 
willing to work with you and with the staff to make some 
changes. I don't have--as I said earlier, I don't have any 
objection to limits. I don't really think that they are 
particularly a good idea in this context. And if we did, I 
think that was a good suggestion to say that perhaps they 
should be limited only while in office, because the further a 
President gets away from office I suppose the harder it would 
become to raise money.
    At any rate, this hearing was designed to start the ball 
rolling about this legislation, and I appreciate Chairman Horn 
expressing interest in it, and also I understand that Chairman 
Burton and he has cosponsored my bill, and so I really am 
appreciative of that and I thank you very much for holding this 
hearing.
    Mr. Horn. Well, we thank you. I just note for the record 
that the committee staff has contacted the heads of the various 
Presidential libraries, and the heads of the libraries 
discussed the legislation with our staff but generally 
expressed a preference not to testify at the hearing. I don't 
know if they felt maybe we won't be getting the money we need 
or something. But anyhow, that's just for the record on that.
    I think what you have given us is sufficient for any 
revisions in the bill is the way I feel about it. So I want to 
thank each of you. It is very important, and you gave some 
really first class evidence on this, especially when we get 
into tax laws. Thank you very much.
    This is the statement of the ranking Democratic that will 
be put in the record at the beginning, after myself and Mr. 
Putnam.
    The staff that has helped do this is J. Russell George, our 
staff director and chief counsel, who is over there in the 
corner; Randy Kaplan, full committee professional staff; Bonnie 
Heald, director of communications; Earl Pierce, professional 
staff; Matthew Ebert, who is on my left and a very useful 
policy adviser; Grant Newman, assistant to the committee; and 
Brian Hom is intern on the staff. And with the minority staff, 
we have got Michelle Ash, professional staff; David McMillen, 
professional staff; Jean Gosa, minority clerk. And we have two 
court reporters today, Bob Cochran and Mindi Colchico. Thank 
you very much.
    With that, we are adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
